6224

No.

ORIGINAL
Supreme Court, U.S.
FILED

OCT 0 7 2020
OFFICE OF THE Cl FRK

IN THE
SUPREME COURT OF THE UNITED STATES

6mm L iiih'ibc

— PETITIONER

(Your Name)

vs.

Elite fowys

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

l

(fCUifc

%

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)
<

i

1

(Address)

(City, State, Zip Code)

(Phone Number)

I1

QUESTION(S) PRESENTED

1.

Should a liquor store have rules drugs and alcohol and not follow them?

2.

When a family member notices a problem with the employee and asks the liquor store to help,
should that concerned family member be denied help?

3.

Should that employee be denied help?

4.

Should any provision for the employee be made?

5.

Why wasn't it in this case?

6.

Why would the employee's supervisor pick up and drop off employee because that employee
has a drinking problem?

7.

Is this practice an enabler for the employee?

8.

Why would an employee be allowed to purchase alcohol during work shift?

9.

Why would an employee be allowed to drink during shift?

10. Why would employer allow employee with a known drinking problem to purchase liquor?
11. Why would employer pick up an employee that is drunk or hung over to take to work?
12. Why would employer have intoxicated employee work in the warehouse until employee is sober
when that employee would have to handle large boxes and glass bottles?
13. Why would not the employer allow intoxicated employee medical treatment after breaking toes
and fingers while intoxicated working in the warehouse?
14. Why would employer reprimand employee after tolerating, without any correction, previously?
15. Why would employer, after years of allowing this behavior, harshly punish employee after a
habit has been developed into a routine, making it difficult to process for alcoholic?

LIST OF PARTIES

[vf^All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

APPENDIX B

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

OTHER

page number

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
./

IVj For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
StU&yrf/l
[ vfreported at

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at____
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

[ ^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

j ^0^.(0___ .

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
to and including______
(date) on
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S, C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
___________________ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

AIG Liability for Intoxicated Employees, found online:
"Federal Register 32889; Presidential Documents; Vol. 51. No. 180 Wednesday, September 17,1986
Title 3-; Executive Order 12564 of September 15,1986; The President; Drug-Free Federal Workplace"
Policy, Data, Oversight; WORK-LIFE; Alcoholism in the Workplace: A Handbook for Supervisors;
Introduction; The National Council on Alcohol and Drug Dependence defines alcoholism this way:
"Alcoholism is a primary, chronic disease with genetic, psychological, and environmental factors
influencing its development and manifestations. The disease is often progressive and fatal. It is
characterized by impaired control over drinking, preoccupation with the drug alcohol, use of alcohol
despite adverse consequences, and distortion in thinking, most notably denial."
(https://www.opm.gov/policy-data-oversight/worklife/reference-materials/alcoholism-in-theworkplace-a-handbook-for-supervisors/#content)
"The employees sued to obtain the lost benefits, alleging ERISA violations, breach of contract and a
breach of the implied covenant of good faith and fair dealing. The federal District Court granted
summary judgement in favor of the employer."
"The mission of the Indiana Department of Labor is to advance the safety, health and prosperity of
Hoosiers in the workplace. In order to make significant strides..."

STATEMENT OF THE CASE

My daughter, Brenae Davis, was employed by Elite Beverages for four years. Within that time she
became an alcoholic. Brenae has a daughter. They lived with me. After a while, I noticed empty liquor
bottles, and bottles with liquor in them. Also, her behavior was off. She had a couple of accidents going
to work. Her supervisor picked her up and brought her back home daily so she did not have to drive
because of her dependency on liquor. No enforcement for no intoxication on the job were discussed
with Brenae. She became more and more unlike herself because of the liquor. I spoke to one of the
store owners, Adam Cox. I told him of my concerns with my daughter going to work hung over or
intoxicated and her supervisor transporting her to work and back, and he did not seem concerned. He
said when he got to it he would speak to her. That was June. In October, he spoke to her. By that time,
I had to put her out of my house because she was unrecognizable in many ways from the alcohol. After
Brenae was left to purchase liquor during her working hours and drink on the job and purchase liquor
before she left work, she developed a continued habit to do so, daily. She was dealt with harshly in
October, which was too late and uncaring. That caused her to be depressed. There is a psychology to it,
somehow. My daughter was needing help and her employer refused to help her or support me in trying
to get help for her. In their employee handbook, steps were supposed to have been taken to end that
trend, downward. None were taken. My daughter passed away in January from liquor, and, I believe
heartbroken from the way that she was abruptly treated from drinking, leaving her daughter
motherless, and me, daughterless.

REASONS FOR GRANTING THE PETSTION

A federal court rendered my case to be frivolous. This matter should be granted because there are no
definitive laws for intoxication in the workplace, and specifically, a liquor store. There are no regulations
to monitor employees or enforce the rules of the employee handbook should there be any violation.
Now, my granddaughter has no mother because the rules were not enforced for her mother, and, I
don't have my daughter because the rules weren't enforced. I scheduled a visit with one of the owners,
Adam Cox, in June, he did get around to speaking to my daughter until October. He told my daughter
that I didn't want her to drink on the job. My daughter told me that. That caused her to be angry at me,
causing tension in our home. She had been drinking so much and became so angry and continued
drinking, I had to put her out of my house. By January she was deceased. Without the company
enforcing their rules and allowing her to be intoxicated on the job, every day, I believe that they caused
my daughter's death. They waited too long before correcting her behavior, obviously, making her feel
that it was okay to behave in this manner.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

